No.

SUPREME COURT OF THE UNITED STATES

TAN PHAN,
Petitioner,
v.
MINH TRUONG, et al
Respondents (Debtors).

CERTIFICATE OF COMPLIANCE
I certify that the accompanied petition for writ of certiorari
complies with the requirements of U.S. Supreme Court
Rule 33.1 and 34; especially the word limitations of U.S.
Supreme Court Rule 33.1(g) because it contains only 593
words, excluding the parts of the petition exempted by
U.S. Supreme Court Rule 33.1(d).
It also complies with order list 589 u.s. as a single paper copy of
the 33.1 document but printed on 8/4 x 11 inch paper may
be filed, then the Court may later request booklet format.
Date: June 1st, 2020

RECEIVED
JUN - 9 2020
§UPlREEMECrnifnTLniy

Tan Phan (pro se)
3770 Lovers Wood Ln #1003, Houston, TX 77014
tp 110942@yahoo.com
(832) 554-6642

